OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/IRAQ’S
OVERSIGHT OF PRIVATE
SECURITY CONTRACTORS IN
IRAQ
AUDIT REPORT NO. E-267-09-002-P
March 4, 2009




BAGHDAD, IRAQ
Office of Inspector General


March 4, 2009

MEMORANDUM

TO:             USAID/Iraq Mission Director, Christopher D. Crowley

FROM:           Acting Director, Office of Inspector General, Iraq, Mark S. Norman /s/

SUBJECT:        Audit of USAID/Iraq’s Oversight of Private Security Contractors in Iraq
                (Report Number E-267-09-002-P)


This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on the draft report and modified the report language as
appropriate. Your comments are included in their entirety as appendix II.

The report contains two recommendations for corrective action. Based on your written
comments in which you described actions planned to address our concerns, we consider
that a management decision has been reached on both recommendations.

I want to express my sincere appreciation for the cooperation and courtesies extended
to my staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objective ............................................................................................................ 2

Audit Findings ................................................................................................................. 3

     Incident Reporting Received Inadequate Oversight.................................................... 4

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13
SUMMARY OF RESULTS
USAID relies on private security contractors to provide a variety of security services for
its programs in Iraq, including protection of individuals, nonmilitary transport convoys,
buildings, and housing areas. While USAID/Iraq does not maintain any direct contracts
with private security contractors, security services are procured by the mission’s
implementing partners (contractors and grantees) who have primary responsibility for
oversight. Nevertheless, in managing its contracts and grant agreements, USAID/Iraq
provided some degree of oversight as well. The mission, for example, took timely action
in response to a governmentwide policy ruling, which required that all prime contracts be
modified to add general guidelines that applied to armed contractors, covering such
topics as use of deadly force, training, and hiring standards. (See page 3.)

This audit was conducted to determine whether USAID/Iraq had managed its contracts
and grant agreements with implementing partners to ensure that the partners provided
adequate oversight over their private security contractors. (See page 2.)

At the time of the audit, USAID/Iraq maintained a portfolio of 12 contracts and grant
agreements that had a private security subcontract. As of September 30, 2008,
cumulative obligations and expenditures associated with these subcontracts totaled
approximately $375.1 million and $278.9 million, respectively. (See page 2.)

The audit found that USAID’s implementing partners were not adequately overseeing the
private security contractors’ reporting of serious incidents to ensure that such incidents
were reported properly. This was the case at all three of the implementing partners
visited, as evidenced by the partners’ lack of familiarity with prescribed reporting
procedures as well as the limited records on file documenting previously reported
incidents. Often relying on the security contractors to report these incidents, partners felt
little need to become involved in overseeing the reporting process. As a result, partners
were not in a position to detect reporting deficiencies such as the ones identified by the
audit, allowing some incidents to be reported improperly or, in one case, not reported at
all. In addition, incident reports issued by the security contractors were often not being
received by USAID/Iraq. With these contractors now subject to Iraqi laws—under the
terms of the latest Security Agreement with the Government of Iraq—stronger oversight
is needed to ensure that private security contractors clearly understand and follow
prescribed operational procedures in reporting serious incidents and provide the U.S.
Government with timely notification of these incidents. (See pages 4 through 9.)

To ensure that this is done, the audit team recommended that USAID/Iraq require its
implementing partners to (1) establish procedures for monitoring the reporting of serious
incidents; and (2) report future incidents directly to the mission in conjunction with
normal incident reporting procedures. (See page 9.)

In response to our draft report, USAID/Iraq concurred with both recommendations and
outlined detailed monitoring and reporting procedures it planned to incorporate into its
prime contracts and grant agreements to address the auditors’ concerns. Based on the
mission’s proposed actions, we consider that a management decision has been reached
on the two recommendations contained in the report. (See page 10.)

Management comments are included in their entirety in appendix II.

                                                                                           1
BACKGROUND
Given the security concerns and shortage of U.S. troops in Iraq, the U.S. Government,
including USAID, has relied on private security contractors (PSCs) for a wide variety of
security services, which include the protection of individuals, nonmilitary transport
convoys, buildings, and housing areas. By providing security for reconstruction and
stabilization activities, PSCs contribute an essential service and are viewed as vital to
U.S. efforts to bring peace to Iraq. Nevertheless, the use of armed contractors to
perform security tasks, coupled with prior incidents involving PSCs, has raised concerns
about the oversight and accountability of these firms.

In Iraq, two agencies are responsible for the security of U.S. Government employees
and contractors: (1) the U.S. military, which has responsibility for the security of all
personnel under direct control of the combatant commander and (2) the Department of
State (DOS), which is responsible for all U.S. Government and nongovernment
personnel under Chief of Mission authority. With regard to DOS responsibility, authority
is delegated to Embassy Baghdad’s Regional Security Office which establishes security
policies and procedures. Together, the military and DOS share responsibility for
providing general oversight and coordination of their respective PSCs, regardless of
whether the PSCs perform their services through direct contracts with the U.S.
Government or subcontracts with the Government’s implementing partners.

Since 2005, USAID—whose employees are protected under DOS-procured security
contracts—has not maintained any direct contracts with PSCs, only subcontracts
through its implementing partners (contractors and grantees). Accordingly, this audit
focused primarily on the oversight that these implementing partners exercised over their
PSC subcontractors, particularly with regard to the reporting of serious incidents 1 . At the
time of the audit, the mission’s portfolio had 12 contracts and grant agreements involving
PSC subcontracts. As of September 30, 2008, cumulative obligations and expenditures
associated with these PSC subcontracts totaled approximately $375.1 million and
$278.9 million, respectively.


AUDIT OBJECTIVE
As part of its fiscal year 2009 annual audit plan, the Office of Inspector General/Iraq
conducted this audit to answer the following question:

       Has USAID/Iraq managed its contracts and grant agreements with
        implementing partners such that the implementing partners provided
        adequate oversight of private security contractors?

Appendix I contains a discussion of the audit’s scope and methodology.




    1
     A “serious incident” is defined as involving the use of deadly force, the discharge of a
weapon, and/or an incident resulting in death, serious injury, significant property damage (even if
a weapon is not involved), or other serious consequences.
                                                                                                 2
AUDIT FINDINGS
For the most part, USAID/Iraq managed its contracts and grant agreements such that
the implementing partners for these instruments provided at least some degree of
oversight of their private security contractors (PSCs). The audit found, however, that
additional oversight was needed with regard to PSCs’ reporting of serious incidents to
ensure that such incidents were reported properly and in a timely manner.

USAID/Iraq had only limited management responsibility for ensuring the oversight of
PSCs since it did not have a direct contractual relationship with the PSCs, only with the
implementing partners who subcontracted with the PSCs. Nevertheless, the mission still
made efforts to ensure that a level of oversight was being maintained. For example, the
mission took prompt action, in response to a governmentwide procurement policy
ruling, 2 to ensure that all of its prime contracts involving a PSC subcontract include a
new required clause (FAR 52.225-19), providing general guidelines for armed
contractors, including standards on the use of deadly force, training, and hiring. This
clause also included a separate provision requiring implementing partners to incorporate
the substance of the clause into their subcontracts with PSCs. Although the audit team
verified that the PSC subcontracts had been modified to incorporate the clause, this
action was often apparently carried out only after the auditors requested supporting
evidence documenting that this had, in fact, been done. Nevertheless, with the clause
now incorporated into the PSC subcontracts, no further action is deemed necessary.

In addition to modifying its contracts to include the new FAR clause, USAID/Iraq assisted
Embassy Baghdad in efforts to educate USAID’s implementing partners and their PSCs
on the Embassy’s latest policy directives for armed contractors issued on May 18, 2008
(“Policy Directives for Armed Private Security Contractors in Iraq”). The purpose of
these directives, which apply to all PSCs working—either directly or indirectly—with a
Federal agency under Chief of Mission authority, was to provide a set of rules and
requirements that applied to all nonmilitary PSCs operating in Iraq. To facilitate a
dialogue to discuss and better understand these new policies and procedures, in August
2008 USAID/Iraq hosted a presentation attended by its implementing partners and their
PSCs, which was organized by the Embassy’s Regional Security Office. This meeting
gave attendees an opportunity to obtain clarification on specific aspects of the new
policies and discuss other security issues and concerns.

Site visits to several of USAID’s implementing partners, meanwhile, found that
procedures were generally in place for overseeing PSC operations. These procedures
varied but often included regular meetings or debriefings with the PSC staff as well as
the receipt and review of various documents furnished by the PSC, such as daily
security intelligence reports, security advisories, listings of scheduled transport convoys,
incident reports, and staffing reports (validating the PSC staff present at each location).
Collectively, these procedures helped to keep the implementing partners informed on
PSC operations and other security matters. However, the partners needed to
improve their oversight of PSC reporting of serious incidents to ensure that these
incidents were reported properly and within the required time frames.
   2
      Issued March 31, 2008, by the Federal Acquisition Regulatory Council, a governmentwide
body within the Office of Management and Budget’s Office of Federal Procurement Policy that is
responsible for setting rules on Federal procurement and authorizing revisions to the Federal
Acquisition Regulation (FAR).
                                                                                            3
Incident Reporting Received
Inadequate Oversight
 Summary: Policies and procedures for reporting serious security incidents, which
 apply to all nonmilitary PSCs operating in Iraq under Chief of Mission authority, are
 contained in a set of policy directives issued by Embassy Baghdad. These directives
 specify the procedures PSCs are to follow in reporting serious incidents, including the
 timing of the incident reports and the entities to be notified. The audit found that
 USAID’s implementing partners were not providing sufficient oversight of this area
 to ensure that their PSCs were reporting incidents in accordance with existing
 policy guidance. This weakness was attributed, in large part, to the partners’
 reliance on their PSCs for reporting incidents; partner staff often felt little need to
 become involved in overseeing the process. As a result, USAID's implementing
 partners were not in a position to determine whether incidents were being reported
 properly or to detect any potential reporting deficiencies, such as the ones
 identified by the audit—most of which stemmed from PSCs’ confusion concerning
 prescribed reporting procedures. The audit did not encounter any cases in which
 a serious incident (i.e., involving death or serious injury) failed to be reported to the
 mission, but notification was not always carried out in a timely manner,
 underscoring the need for greater oversight and improved reporting in this area.

Since September 2007, when an incident involving a PSC firm resulted in the deaths of
17 Iraqi civilians in Baghdad, measures have been instituted to improve PSC oversight
and coordination. This effort has led to the issuance of new regulations and guidance.

For example, the Multi-National Force-Iraq published comprehensive regulations—
documented in a series of updated orders—covering areas related to PSC operations,
including detailed procedures for reporting serious incidents. Although these orders
were applicable to PSCs contracted by the Department of Defense, USAID’s PSC
subcontractors have relied on the orders for guidance as well and were expected to
follow them in reporting serious incidents prior to the issuance of policy guidelines by
Embassy Baghdad. Among other things, the orders required that PSCs observing or
participating in a serious incident, such as a weapons discharge, provide an immediate
incident report (or Spot report) to the Multi-National Corps-Iraq’s Contractor Operations
Cell (CONOC), which has responsibility for tracking and coordinating the movement of
PSCs throughout Iraq. Following this initial notification, the PSC was required to issue
an initial written draft of the serious incident report (initial SIR) to CONOC within 4 hours
after the incident, followed by a final written report (final SIR) to be filed within 96 hours.
CONOC forwarded these reports to other entities, including the Embassy’s Regional
Security Office’s Tactical Operations Center (RSO/TOC) and Multi-National Force-Iraq’s
Armed Contractor Oversight Division (ACOD). 3

In May 2008, Embassy Baghdad issued a set of policy directives that provided
guidelines applicable to all PSCs operating in Iraq under either a contract or subcontract
with any Federal agency under Chief of Mission authority. Although these new policy

    3
      In November 2007, the Armed Contractor Oversight Division was established to provide
oversight of PSCs operating in Iraq and serve as a point of contact on policy issues relating to
PSCs. In addition to publishing guidance, the division is responsible for reviewing and tracking all
reported PSC incidents as well as facilitating coordination on PSC matters among Department of
Defense, the Department of State, the Government of Iraq, and the PSC community.
                                                                                                  4
directives were considered to be aligned for the most part with the guidance contained in
the Multi-National Force-Iraq’s operational orders, they contained a few key differences.
One, specified in the policy directives, required PSCs to start reporting serious incidents
directly to both CONOC and RSO/TOC, rather than only to CONOC as previously
required under the Multi-National Force’s reporting procedures.

Figure 1: Current Serious Incident Reporting Process


                             PSC
                                                               Immediate notification (verbal or
                                                                via e-mail) made at earliest
                                        Serious                 opportunity after incident.
                                        Incident
                                                               PSC sends initial written incident
                                                                report within 4 hours after incident.

                                        Notification           PSC sends final incident report
                                                                within 96 hours following incident.




       RSO/TOC
        (U.S. Embassy                  CONOC
       Regional Security                (Contractor
        Office’s Tactical             Operations Cell)
       Operations Center)



  Reported via the RSO
  Liaison Officer assigned
  to CONOC HQ

                                         ACOD
                                     (Armed Contractor
                                     Oversight Division)




                                      Government                              Others
                                        of Iraq                                 as
                                     (Ministry of Interior)                   Needed




                                                                                                     5
The audit, however, found that USAID’s implementing partners were not always
providing sufficient oversight over their PSCs with regard to the reporting of serious
incidents. Site visits to three of the partners selected for review disclosed that
procedures were in place to keep the partners informed on the PSC’s day-to-day
operations and other security matters, including the occurrence of any serious incidents.
However, there appeared to be little effort made by the implementing partners to
oversee the PSCs’ reporting of such incidents to ensure that they were reported properly
and within the prescribed time frames.

This lack of oversight was apparent during discussions with the partners’ security and
operations staff, who were often unfamiliar with the required reporting procedures
outlined in the Embassy's policy directives or not even aware that the document existed.
It was also reflected in the lack of records (i.e., incident reports) on file in the partners’
offices documenting previously reported incidents. Examples include the following:

   One implementing partner had virtually no records on hand documenting any of the
    serious incidents reported by its PSC during fiscal year (FY) 2008. Of the ten
    serious incident reports (SIRs) issued by the PSC during the fiscal year, none were
    on file at the partner's office. During an interview, the partner’s new security director
    acknowledged that prior to his arrival in July 2008, recordkeeping had been
    inadequate as evidenced by his inability to find any records documenting earlier
    serious incidents. Although he has made efforts to improve the recordkeeping, a
    review of his records, during a visit in October 2008, revealed that his file was still
    incomplete and missing at least one incident report issued since his arrival.

   Incident reports were also not on file at the office of a second partner, whose security
    records were limited primarily to security advisories and correspondence relating to
    various security matters. A review of these records found that they made reference
    to only 1 of the 13 serious incidents reported by the partner’s PSC during FY 2008.

The lack of oversight in this area was attributed, in part, to the implementing partners'
reliance on their PSCs for reporting serious incidents. Partners considered it the PSC's
responsibility to ensure that incidents were properly reported and felt little need to be
involved in overseeing this area, beyond being informed of incidents. Staffing was also
a factor. At one implementing partner, the audit team noted that the partner had
employed its own security director, whose primary responsibility was to work on security
matters, including overseeing the PSC. Other partners, meanwhile, had assigned these
tasks to officials who were already responsible for other operational areas and,
therefore, were unable to devote enough time to overseeing the reporting process.

With little or no oversight in this area, implementing partners were not in a position to
detect potential reporting deficiencies—such as those identified by the audit team—and,
therefore, were unable to ensure that their PSCs were reporting incidents in accordance
with prescribed procedures. Interviews with the PSC staff, for example, revealed a
certain degree of confusion, with staff not always clearly understanding the reporting
requirements—a problem of which the partners were unaware. To illustrate, one PSC
official stated that he understood that serious incidents must be reported to RSO/TOC,
but mistakenly thought that this only applied to incidents involving partner staff or
activities. As a result, a vehicle accident in August 2008—which should have been
reported—went unreported, since the passengers in the vehicle, some sustaining
serious injuries, involved PSC staff only.


                                                                                            6
This confusion was also reflected in the PSCs' written procedures. In reviewing one
PSC’s flowchart that outlined its incident reporting process, the audit team noted that the
procedures presented were not always consistent with those prescribed in the
Embassy’s policy directives and, in some cases, did not even accurately reflect actual
practice. The flowchart indicated that initial SIRs were to be completed within 12 hours
after the incident—not 4 hours as stipulated in the guidelines—and were not being
issued to CONOC as required. Although this chart correctly indicated that final SIRs
were to be issued to CONOC, the PSC acknowledged that this was not being done in
actual practice. In fact, of the three required stages of notification to CONOC (spot
report, initial SIR, and final SIR), the PSC official stated that only the spot reports were
being sent to CONOC. When asked why, the official replied that this initial notification
was the only reporting PSCs were required to provide to CONOC—which was incorrect
and contrary to the Embassy’s reporting guidelines.




A PSC team secures the immediate area while transporting staff with one of USAID’s implementing
partners. (Photograph source: PSC firm)

Given this confusion, coupled with possible recordkeeping issues at some locations, it
was not surprising that incident reports prepared by the PSCs were not on file at some of
the key offices within the incident reporting process. An analysis comparing the SIRs
maintained by the PSC against those on file with other entities within the reporting chain,
for the 7-month period from March 1 to September 30, 2008, disclosed some large
discrepancies. Of the 10 SIRs prepared by one PSC, for example, only 4 (40 percent)
were on file with the implementing partner; 5 (50 percent) with CONOC; 4 (40 percent)
with ACOD; and 3 (30 percent) with RSO/TOC. Other examples are presented below.



                                                                                             7
                    Analysis of Incident Reports on File at Key Offices
                         Within the Incident Reporting Process
                             (March 1 to September 30, 2008)
                         Implementing
         PSC                                CONOC           ACOD            RSO/TOC
                            Partner
              Total      Reports         Reports         Reports          Reports
   No.                             %               %               %                %
             Reports     on File         on File         on File          on File
    1          10           4      40%      5      50%     4       40%      3       30%
    2           7           0      0%       4      57%     4       57%      2       29%
    3           6           1      17%      2      33%     0       0%       2       33%
   Totals      23           5      22%     11      48%     8       35%      7       30%

Unfortunately, we were unable to determine whether any of these incident reports
eventually reached USAID/Iraq or whether the mission was ever notified of the incidents,
since the mission did not have a formal reporting mechanism in place. Although PSCs
often sent a copy of the incident report directly to the USAID Regional Security Officer
(USAID RSO), believing that in doing so they were keeping the mission informed, these
reports were probably not received by the mission because of a misunderstanding over
the role of the USAID RSO. This individual, in actuality, is not a USAID employee, as
the partners and PSCs mistakenly thought, but rather a DOS employee posted at the
mission who serves as an onsite representative of the Embassy's RSO. And with regard
to reported incidents, the USAID RSO serves as a conduit between the PSCs and the
Embassy’s RSO—but not the mission. Accordingly, unbeknownst to USAID’s partners
and their PSCs, the incident reports sent to the mission via the USAID RSO were
generally not passed on to the mission and instead were forwarded to the Embassy’s
RSO. As a result, the mission was excluded from the reporting process, unless mission
staff happened to learn about incidents through word of mouth or other channels.




            A PSC team prepares to depart in a convoy of armored vehicles.
            (Photograph source: PSC firm)

                                                                                          8
And while the audit did not encounter any instances where a serious incident—involving
the death of an employee or local civilian—occurred without some manner of notification
to the mission, the reporting was not always carried out in a timely manner. One such
case involved the death of a guard employed by a PSC firm under contract with two of
USAID's implementing partners. The guard, a third-country national, died on August 8,
2008, after being accidentally electrocuted at the partners’ main compound, where he
was assigned. An initial investigation revealed that an unauthorized, improperly wired
electrical connection leading outside the compound had created a dangerous safety
hazard, especially in the gym room (inside the compound), where the incident occurred.

Although the PSC reported the accident immediately, notifying CONOC within an hour
after its occurrence, RSO/TOC did not receive details of the incident until August 12,
2008—4 days later—when it received the PSC’s final SIR. USAID/Iraq, meanwhile, did
not learn of the incident until the following day—5 days after the incident—when
RSO/TOC forwarded the final SIR. During the subsequent investigation, an OIG
investigator assisting in the investigation noted that the PSC staff was uncertain of whom
they were supposed to notify. One PSC official thought such incidents were to be
reported initially to CONOC only, and that in doing so, the Embassy RSO’s requirement
to report incidents to the RSO/TOC would be satisfied, since CONOC had an RSO
liaison officer onsite. The official later acknowledged, however, that to comply with
current policies, the incident should have been reported directly to RSO/TOC as well.

This and other examples show a clear need for PSCs to gain a better understanding of
the required reporting procedures and for USAID’s implementing partners to provide
stronger oversight in this area. Now that PSCs will be subject to Iraqi laws—under the
terms of the latest Security Agreement with the Government of Iraq—and with the U.S.
Government expected to issue new rules of engagement and other security procedures
as it executes the new agreement, it is critical that PSCs keep abreast of the current
procedures and clearly understand and follow them. To help ensure that this is done, so
that serious incidents are properly reported, with USAID receiving timely notification of
these incidents as well—we are recommending the following:

   Recommendation No. 1: We recommend that USAID/Iraq require its
   implementing partners to establish procedures to monitor the reporting of serious
   incidents to ensure that such incidents are properly reported.

   Recommendation No. 2: We recommend that USAID/Iraq require its
   implementing partners to notify the mission of all serious incidents by including
   the mission in the reporting of these incidents.




                                                                                        9
EVALUATION OF
MANAGEMENT COMMENTS
In its written comments on our draft report, USAID/Iraq concurred with the findings and
recommendations contained in the report and described the monitoring and reporting
procedures it planned to establish to address our concerns and strengthen oversight.

To address our recommendation relating to the monitoring of reported incidents,
USAID/Iraq stated that it planned to incorporate a reporting provision into its prime
contracts and grant agreements, outlining procedures for monitoring and reporting
serious incidents. Among other things, these new procedures will include incident
reporting procedures—consistent with those specified in Embassy Baghdad’s policy
directives—to be carried out by the implementing partner’s private security contractor. In
addition, the new reporting provision will require the mission’s implementing partners to:
(1) ensure that they receive a copy of all serious incident reports issued by their private
security contractors; (2) maintain detailed records (e.g., copies of incident reports)
documenting all reported incidents to facilitate monitoring; (3) review applicable
procedural guidance to gain a clear understanding of the current prescribed procedures
for reporting serious incidents; and (4) regularly review the security contractors’ actual
reporting procedures to ensure that they are consistent with those currently prescribed
by Embassy Baghdad.

To address the second recommendation concerning the need for implementing partners
to notify USAID/Iraq of all serious incidents, the mission stated that the reporting
provision, referred to in the preceding paragraph, will also require implementing partners
to include the mission in the reporting process for notification and recordkeeping
purposes. Under this new reporting procedure, the mission’s partners will be required to
furnish the mission with a copy of all incident reports that are issued—both the initial and
final versions—within the same timeframes that these reports are required to be issued
to Embassy Baghdad and other required recipients. To ensure that appropriate mission
personnel are promptly notified of any serious incidents, the mission designated the
Contracting Officer Technical Representative and Agreement Officer Technical
Representative for each contract and grant award to serve as the point of contact for
receiving the incident reports.

We believe that the above actions appropriately address our concerns. Consequently,
we consider that a management decision has been reached on both recommendations.
The mission’s comments are included in their entirety as appendix II.




                                                                                         10
                                                                               Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions.

Since USAID/Iraq did not have direct contracts with any private security contractors
(PSCs)—only subcontracts through its implementing partners—the audit focused
primarily on the partners’ oversight of their PSCs. At the time of the fieldwork, the
mission maintained a portfolio consisting of 12 contracts and grant agreements involving
a PSC subcontract. As of September 30, 2008, cumulative obligations and expenditures
associated with the PSC subcontracts totaled approximately $375.1 million and $278.9
million, respectively.

The scope of the audit included only 3 of the 12 direct contracts and grant agreements in
the audit universe—consisting of 2 contracts and 1 grant agreement—each with its own
PSC subcontract, with these subcontracts representing 71 percent of the total PSC
personnel employed and 62 percent of the total PSC funds obligated.

The audit, in general, covered the period from October 1, 2007 to September 30, 2008.
However, in the case of one analysis—focusing on the reporting of serious incidents—
the audit period was adjusted to cover the 7-month period from March 1 through
September 30, 2008, to avoid distortions in the results, since certain key entities
involved in this analysis were not in existence throughout fiscal year (FY) 2008.

In planning and performing the audit, the audit team assessed relevant controls used by
the mission to manage its portfolio of contracts and grant agreements and to ensure that
the implementing partners for those instruments were providing adequate oversight of
their PSCs.      Because the mission’s contractual relationship with these PSC
subcontractors was indirect, USAID/Iraq’s management responsibilities, in the context of
this audit, were fairly limited. Specifically, the mission’s controls were limited to: (1)
ensuring that contracts with prime contractors having private security subcontracts be
amended to include a clause representing an amendment to the Federal Acquisition
Regulation (FAR 52.225-19), providing general guidelines for PSC personnel performing
security functions as well as a provision that a similar clause be included in the prime
contractor’s subcontract with the PSC; (2) requiring implementing partners to provide a
monthly threat report listing any threat-related incidents that occurred during the
preceding month; and (3) receiving financial data quarterly to track cumulative
obligations and expenditures under both the prime contract and PSC subcontract.
Additionally, the auditors examined the mission’s FY 2008 annual self-assessment of
management controls, which the mission is required to carry out to comply with the
Federal Managers’ Financial Integrity Act of 1982.

Audit fieldwork was performed at the USAID/Iraq Mission and the country offices for the
three selected implementing partners and their PSCs, all of whom were located in
Baghdad, Iraq, from September 22, 2008 through January 20, 2009.

                                                                                       11
                                                                                Appendix I


Methodology
To determine whether USAID/Iraq had been managing its contracts and grant
agreements to ensure that its implementing partners were providing adequate oversight
of their PSCs, the audit team initially interviewed key USAID/Iraq staff in the mission’s
Office of Acquisition and Assistance, both by e-mail and in person, to ascertain the
mission’s management responsibilities in ensuring that its implementing partners provide
oversight of their PSCs. One of the key tasks involved executing a policy ruling issued
by the Federal Acquisition Regulatory Council, a Governmentwide body within the Office
of Federal Procurement responsible for establishing and updating the Federal
procurement regulations contained in the Federal Acquisition Regulation (FAR). This
policy ruling, which went into effect on March 31, 2008, provided general guidelines that
applied to armed contractors (e.g., rules of engagement, training, and hiring standards)
and, in the case of USAID, required all prime contracts involving PSC services to be
modified to include an additional clause (FAR 52.225-19), which provided these
guidelines. This clause also included text requiring the contractor to incorporate the
substance of the clause into its subcontract with the PSC. In determining whether the
mission executed the policy ruling, the audit team examined the contract documents on
file at the mission for all of the contracts in the audit universe and verified that the
contracts had been modified to include the FAR clause. Selected PSC subcontract
documents were also obtained and checked to verify that the contractors had included
the substance of the clause in their subcontracts.

In assessing whether implementing partners were providing adequate oversight of their
PSCs, the audit team reviewed each partner’s procedures for monitoring PSC
operations and keeping the partner and USAID informed on security matters, including
serious incidents. This review involved discussions with security or operational officials
at each of the three selected implementing partners to gain an understanding of the
partners’ procedures. Additionally, the auditors examined available records on file at
each implementing partner’s office, such as daily security reports and advisories, as
evidence of the information received from the PSC and the extent of oversight provided
by the implementing partner.

The audit team also conducted an analysis of the PSCs’ reporting of serious incidents.
This entailed a review of PSC reporting procedures to determine whether they were
consistent with the latest reporting guidelines contained in “Policy Directives for Armed
Private Security Contractors in Iraq,” issued by the U.S. Embassy in Baghdad on May
18, 2008. This review also included a comparative analysis in which the auditors
examined the serious incident reports issued by three selected PSCs during the 7-month
period from March 1 to September 30, 2008, comparing the reports issued and on file
with the PSC against those on file with other entities within the incident reporting chain.
Other entities included the implementing partner, the Embassy’s Tactical Operations
Center, the central office for the Contractor Operations Cell, the Multi-National Force-
Iraq’s Armed Contractor Oversight Division, and USAID/Iraq. In conducting this
analysis, we interviewed officials from each of these offices.

In assessing the results of our analyses, we established a materiality threshold of 85
percent. For example, if at least 85 percent of the incident reports issued by a PSC
were found to be on file with the implementing partner and other offices within the
reporting chain, we concluded that these reports were reaching the intended recipients.



                                                                                        12
                                                                                 Appendix II



MANAGEMENT COMMENTS


                                                                         February 23, 2009

To:            Director, Office of Inspector General/Iraq, Gerard Custer

From:          USAID/Iraq Deputy Mission Director, Thomas R. Delaney /s/

Subject:       Management Comments, Audit of USAID/Iraq’s Oversight of Private
               Security Contractors in Iraq

References:    Draft Audit Report No. E-267-09-002-P


Thank you for affording the USAID/Iraq Mission an opportunity to respond to the draft of
the audit of USAID/Iraq’s Oversight of Private Security Contractors (PSCs) in Iraq.
Below is the Mission’s response to the two (2) recommendations outlined in the draft
audit for your consideration.

We would also like to thank your team who spent a good deal of time evaluating this
issue. This mutual effort will certainly result in improved oversight to the extent possible,
given that since 2005, USAID/Iraq has not maintained any direct contracts with PSCs,
but has only sub-awards through its contractors and grantees (i.e., our implementing
partners). Accordingly, we understand that this audit focused primarily on the oversight
that these implementing partners exercised over their PSC subcontractors, particularly
with regard to the reporting of serious incidents. We look forward to resolving the two
recommendations in a timely fashion.

Background

The OIG draft audit report of the Mission’s oversight of the Private Security Contractors
in Iraq (PSCs) was provided to the Mission on January 21, 2009. The audit sought to
determine whether USAID/Iraq has managed its contracts and grant agreements with
implementing partners such that the implementing partners provided adequate oversight
of private security contractors.

Each of the findings has been examined to determine 1) whether the Mission is in
agreement, and 2) what actions would be undertaken in response to the audit. Where
management actions in response to the audit are not yet resolved, the Mission will
provide target dates for their completion. The Mission recognizes the value as a
management tool of this OIG audit, and is in agreement with both of the audit’s
recommendations.


                                                                                          13
                                                                                   Appendix II


Recommendation No. 1:

We recommend that USAID/Iraq require its implementing partners to establish
procedures to monitor the reporting of serious incidents to ensure that such incidents are
properly reported.


Action taken:
USAID/Iraq concurs with the recommendation and is taking the following actions:

1. Within 90 days (or by June 30, 2009, whichever is later) OAA/Baghdad will ensure,
   through formal modification, an update of Section H (Special Award Conditions) of all
   prime contracts, or to the Schedule (Section A) of all prime assistance awards to
   include the following reporting provision:

       SERIOUS INCIDENT REPORTING REQUIREMENTS

       DEFINITIONS

       Private Security Contractor (PSC): A private company, and or its
       personnel, that provides physical protection to or security for persons,
       places, buildings, facilities, supplies, or means of transportation.

       Protective Security Specialist (PSS): An individual performing static or
       mobile security functions on a personnel protective security detail
       assignment, as authorized by contract.

       Protective Security Detail (PSD): A team of PSS personnel that
       provides physical protective services for the movement of protected
       persons and/or property.

       Static Guards: an individual who is providing security at facilities and/or
       check-points.

       Serious Incident: An incident involving the use of deadly force, the
       discharge of a weapon (other than in training or into a clearing barrel),
       and/or an incident that resulted in death, serious injury, significant
       property damage (even if a weapon is not involved), or other serious
       consequences.

       The following reporting requirements apply to all PSCs (including static
       guards) regardless of whether their movements are coordinated through
       the RSO Tactical Operations Center (TOC) or the Multi-National Corps
       Iraq (MNC-I) Contractor Operations Cell (CONOC).

       PSCs must provide notification, either verbal or in writing via email, of any
       serious incident to the RSO TOC - and to the CONOC if PSD movements
       are coordinated by the CONOC – as soon as practical, but not later than
       one hour after the incident. This notification must provide as many details
       known at the time about the incident. PSCs must submit an initial formal
       written incident report within 4 hours of the incident to the prime


                                                                                           14
                                                                              Appendix II


       contractor/recipient. The prime contractor/recipient must ensure that the
       report has been appropriately disseminated (to the TOC or CONOC) and
       that it is concurrently sent to the USAID cognizant contracting/grant
       officer representative (COTR/AOTR) immediately upon receipt. The
       initial report will include the name of the company, where the incident
       occurred, time when the incident occurred, a brief description of the
       events leading up to the incident, and a point of contact for the company.
       A follow-up, comprehensive written report of events surrounding the
       incident must be provided within 96 hours unless otherwise directed by
       the RSO.

       Follow-up reports must be submitted, with confirmed receipt, to the prime
       contractor, the RSO TOC in addition to any other supervising contractors
       and to the cognizant contracting/grant officer representative
       (COTR/AOTR). Although subject to RSO discretion, RSO will generally
       investigate incidents involving a confirmed or likely death or serious
       injury, or where criminal misconduct may have occurred. The prime
       contractor/recipient must ensure timely investigation occurs and that all
       records are maintained on file.

       The prime contractor/recipient is responsible for ensuring that they and all
       sub-awardees are familiar with and comply with relevant Chief of Mission
       and US Central Command policies, rules and requirements, as well as
       USAID requirements and applicable Iraqi law.

   At a minimum, these procedures require the partners to: (1) ensure that they receive
   a copy of all serious incident reports issued by their PSC; (2) maintain detailed
   records (e.g., copies of incident reports) documenting all reported incidents to
   facilitate monitoring; (3) review applicable procedural guidance to gain a clear
   understanding of the current prescribed procedures for reporting serious incidents;
   and (4) regularly review their PSC’s actual reporting procedures to ensure they are
   consistent with those current and prescribed by the U.S. Embassy.

2. Prior to formal modification of the subject awards, OAA/Baghdad will issue an A&A
   Notice executed by the Supervisory Contracting Officer, with input by the U.S.
   Embassy Baghdad Regional Security Office (RSO), communicating this mandatory
   monitoring and reporting requirement to all implementing partners concurrent with
   the issuance of this audit report.

Recommendation No 2:

We recommend that USAID/Iraq require its implementing partners to notify the Mission
of all serious incidents by including the mission in the reporting of these incidents.

Action taken:
USAID/Iraq concurs with the recommendation and is taking the following actions:

1. In accordance with Recommendation No. 1 above, additional monitoring and
   reporting requirements related to their administration and oversight of the PSC sub-
   awards will be required of each implementing partner. These requirements include
   an immediate and timely copy provided to the Mission for the reporting of all serious


                                                                                      15
                                                                              Appendix II


   incidents (i.e., incidents involving the issuance of a Serious Incident Report or SIR).
   In addition, Mission management must be, at a minimum, verbally notified of any SIR
   within 6 hours of the actual event. Subsequently, the implementing partner will be
   required to furnish the Mission (in addition to the USAID RSO) with a copy of the
   incident reports that are issued—including the initial and final version of the SIR—
   within the TOC and CONOC required timeframes for notification and federal
   recordkeeping purposes. The Mission has designated the COTR/AOTR for each
   award to serve as the point person for receiving these reports.

With the above measures, the PSCs will gain a better understanding of the required
reporting procedures and USAID’s implementing partners will be able to provide stronger
oversight in this area. Now that PSCs will be subject to Iraqi laws—under the terms of
the latest Security Agreement with the Government of Iraq—and with the U.S.
Government expected to issue new rules of engagement and other security procedures
as it executes the new agreement, we agree that it is critical that all USAID funded PSCs
keep abreast of the current procedures and clearly understand and follow them.




                                                                                       16
